<html>
<title> - NOMINATIONS OF BALASH, GLICK, McINTYRE AND NELSON</title>
<body><pre>[Senate Hearing 115-285]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-285

                                     
                            NOMINATIONS OF 
                   BALASH, GLICK, McINTYRE AND NELSON

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                   To

CONSIDER THE NOMINATIONS OF JOSEPH BALASH TO BE ASSISTANT SECRETARY OF 
THE INTERIOR FOR LAND AND MINERALS MANAGEMENT; RICHARD A. GLICK TO BE A 
                         MEMBER OF THE FEDERAL 
 ENERGY REGULATORY COMMISSION; KEVIN J. McINTYRE TO BE A MEMBER OF THE 
 FEDERAL ENERGY REGULATORY COMMISSION; AND RYAN NELSON TO BE SOLICITOR 
                       OF THE DEPARTMENT OF THE 
                                INTERIOR

                               __________

                            SEPTEMBER 7, 2017

                               __________
                               
                               
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                               
                               


                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
              
              
              
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-873                     WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0760776847647274736f626b772964686a29">[email&#160;protected]</a>              
              
              
              
              
              COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
CORY GARDNER, Colorado               JOE MANCHIN III, West Virginia
LAMAR ALEXANDER, Tennessee           MARTIN HEINRICH, New Mexico
JOHN HOEVEN, North Dakota            MAZIE K. HIRONO, Hawaii
BILL CASSIDY, Louisiana              ANGUS S. KING, JR., Maine
ROB PORTMAN, Ohio                    TAMMY DUCKWORTH, Illinois
LUTHER STRANGE, Alabama              CATHERINE CORTEZ MASTO, Nevada

                      Colin Hayes, Staff Director
                Patrick J. McCormick III, Chief Counsel
                  Kelie Donnelly, Deputy Chief Counsel
           Angela Becker-Dippmann, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                            
                            
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Cantwell, Hon. Maria, Ranking Member and a U.S. Senator from 
  Washington.....................................................     5
Risch, Hon. James E., a U.S. Senator from Idaho..................     6
Lee, Hon. Mike, a U.S. Senator from Utah.........................     6

                               WITNESSES

Balash, Joseph, nominated to be Assistant Secretary of the 
  Interior for Land and Minerals Management......................     7
Glick, Richard A., nominated to be a Member of the Federal Energy 
  Regulatory Commission..........................................    12
McIntyre, Kevin J., nominated to be a Member of the Federal 
  Energy Regulatory Commission...................................    16
Nelson, Ryan, nominated to be Solicitor of the Department of the 
  Interior.......................................................    21

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Alaska Outdoor Council:
    Letter for the Record........................................   140
American Public Gas Association:
    Letter for the Record........................................   141
Athay, William, et al.:
    Letter for the Record........................................   142
Balash, Joseph:
    Opening Statement............................................     7
    Written Testimony............................................    10
    Responses to Questions for the Record........................    55
Cantwell, Hon. Maria:
    Opening Statement............................................     5
Conrad, Gregory:
    Letter for the Record........................................    47
Glick, Richard A.:
    Opening Statement............................................    12
    Written Testimony............................................    14
    Responses to Questions for the Record........................    72
Grasser, Eddie:
    Letter for the Record........................................    48
Kenai River Sportfishing Association:
    Letter for the Record........................................    49
Lee, Hon. Mike:
    Opening Statement............................................     6
McIntyre, Kevin J.:
    Opening Statement............................................    16
    Written Testimony............................................    18
    Responses to Questions for the Record........................    92
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
National Rifle Association of America:
    Letter for the Record regarding Joseph Balash................    50
    Letter for the Record regarding Ryan Nelson..................   146
Nelson, Ryan:
    Opening Statement............................................    21
    Written Testimony............................................    23
    Responses to Questions for the Record........................   130
North Slope Borough (Alaska):
    Letter for the Record........................................    51
Risch, Hon. James E.:
    Opening Statement............................................     6
Sullivan, Hon. Dan:
    Statement for the Record.....................................     4
Utilities Technology Council:
    Statement for the Record.....................................   147

 
                            NOMINATIONS OF 
                   BALASH, GLICK, McINTYRE AND NELSON

                              ----------                              


                      THURSDAY, SEPTEMBER 7, 2017

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:38 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning, everyone. The Committee will 
come to order.
    We are here today to start off the September session by 
considering four nominations; two for the Department of the 
Interior (DOI) and two for the Federal Energy Regulatory 
Commission (FERC). Our Interior nominees are Joe Balash, to be 
the Assistant Secretary for Land and Minerals Management, and 
Ryan Nelson, to be the Solicitor. Our FERC nominees are Rich 
Glick and Kevin McIntyre, who is slated also to be designated 
as the Commission's Chairman upon confirmation. I want to thank 
all four of our nominees for their willingness to serve or 
continue serving our country.
    Each of you has been nominated for a critical leadership 
position at an agency or department that is very important. You 
will certainly have the power to affect millions of American 
lives.
    As we have noted here many times before, FERC has 
significant reach into the national economy. According to the 
Congressional Research Service, the value of energy commodities 
flowing through FERC-regulated wires and pipes is approximately 
three percent of the nation's GDP. Of course, what those 
commodities go on to fuel and power make up an even larger 
component of our broader economy.
    Just before the August state work period we approved two 
FERC nominees and restored a working quorum for the Commission. 
After six months with just one confirmed commissioner, the 
nominees before us today will provide this agency with a full 
complement of five members. They have their work cut out for 
them as they address----
    [Protester interrupting.]
    The Chairman. The Committee will come to order.
    As I was saying, the FERC will have their work cut out for 
them. They have to address a significant backlog of pending 
matters, but with these nominees FERC will be back up to speed 
with a full roster.
    I am confident that Mr. McIntyre will be a capable Chairman 
upon his confirmation. He has significant experience and strong 
qualifications for the role.
    Mr. Glick, who is Senator Cantwell's General Counsel here 
on the Committee, is certainly well known to many of us. I will 
let Senator Cantwell speak to his background and 
qualifications, but I, personally, want to thank him for his 
service to this Committee, including his role in shaping our 
bipartisan energy bill and many other matters. Mr. Glick, I 
truly appreciate the working relationship that we have had and 
what you have contributed to the Committee.
    Given the extraordinary scope of the Interior Department's 
responsibilities, including its administration of more than a 
quarter of the land in our nation and about two-thirds of the 
land of Alaska, we also recognize that it is well past time 
that Secretary Zinke and Deputy Secretary Bernhardt have the 
help that they need.
    I welcome the nomination of Ryan Nelson of Idaho, a 
Westerner and a seasoned General Counsel. Mr. Nelson is 
returning to Washington, DC, to resume his already notable 
public service, this time as Solicitor. Senator Risch will have 
a few words as he will introduce him shortly.
    I will focus my own introduction on our fourth nominee, Mr. 
Joe Balash of the great State of Alaska. I am delighted to have 
Joe before the Committee today. He is a fellow Alaskan which 
should be enough to convince everyone to just vote yes on his 
nomination.
    [Laughter.]
    Mr. Balash hails from North Pole, not ``The'' North Pole, 
but from North Pole, Alaska. He is currently serving as Senator 
Sullivan's Chief of Staff. He previously ran Alaska's 
Department of Natural Resources.
    I have worked closely with him in both of these roles, and 
I truly cannot say enough about his understanding and, 
certainly, knowledge of these issues. I think he will be an 
excellent Assistant Secretary, overseeing the Bureau of Land 
Management (BLM), the Bureau of Ocean Energy Management (BOEM) 
and several other key agencies within the Department of the 
Interior.
    Senator Sullivan did want to be here today to introduce Mr. 
Balash but that wasn't possible due to a death in his family, 
so I will read a short statement that Senator Sullivan wrote 
before submitting his full statement for the record.
    Senator Sullivan says, ``Joe Balash currently serves as my 
Chief of Staff. While we are sorry to lose him, the job that 
Secretary Zinke has tasked him with is one that, I believe, he 
is uniquely qualified for. Joe was my Deputy Commissioner of 
Alaska's Department of Natural Resources and then he became the 
Commissioner of DNR. Alaska's DNR manages one of the largest 
portfolios of land, water, oil, gas, renewables, timber and 
minerals in the world. Responsible development of Alaska's 
resources requires working closely with all groups that have a 
stake in Alaska's lands and waters, including 
environmentalists, conservationists, hunters, tribes, energy 
companies and citizens. Joe understands how to work to develop 
our resources while always understanding that our lands sustain 
us and stringent environmental safeguards are absolutely 
necessary for all Americans. Joe Balash is a hard worker, a 
great father and husband and a good friend. I hope this 
Committee can vote him out favorably to be considered by the 
full Senate.''
    [The information referred to follows:]
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. Well, Joe, like Senator Sullivan, I certainly 
look forward to having you at the Department of the Interior. I 
know a lot of Alaskans, a lot of Westerners, feel the same way. 
Again, thank you for your willingness to step up in this 
capacity.
    Now, to a little bit of the business. For members who will 
have questions for our nominees, I will be here for as long as 
possible today. I am bouncing in and out of committees, as I 
know other members are, but if any members have additional 
questions after the hearing, questions for the record will be 
due at the close of business today. Finally, I would advise 
members to be prepared to report these nominees as soon as 
possible.
    With that, I turn to Senator Cantwell for her opening 
remarks. After that we will have brief remarks from Senator 
Risch to introduce Ryan Nelson, and then we will swear in all 
the witnesses.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair, and thanks for 
scheduling this hearing and congratulations to all the nominees 
on being nominated for your posts.
    Because of the recess, I have not had a chance to meet with 
three of the nominees, Mr. McIntyre, Mr. Nelson and Mr. Balash, 
but I look forward to doing that now that we are back. So I 
look forward to your comments this morning as well.
    I did want to say something, though, this morning about our 
FERC nominee to the Commission. I am particularly pleased by 
the President's nomination of Rich Glick to the Federal Energy 
Regulatory Commission. Rich has worked, as the Chairwoman just 
said, most recently for us on the Committee for the past 18 
months, but he brings a rich wealth of knowledge about electric 
utility, natural gas and a myriad of other energy issues 
working in both the public and private sectors. He gained that 
knowledge working for Senator Dale Bumpers, one of our former 
colleagues, as Legislative Director and Chief Counsel, and as 
Policy Advisor to Energy Secretary Bill Richardson during the 
Western energy crisis. He has also worked for two major 
electric utility companies, PacifiCorp and Iberdrola, which is 
now Avangrid.
    He understands the complex issues that come before the 
Commission because he has spent 25 years working on them. He 
also understands the importance of FERC and its role in 
protecting the public interest and ensuring that just and 
reasonable rates for natural gas and electricity help keep the 
markets fair and free of market manipulation.
    [Protestor interrupting.]
    Senator Cantwell. Rich's appointment to the Commission 
certainly will be a loss for us here but it will be a gain for 
FERC. I look forward to an opportunity for him to elaborate 
more on that experience during today's hearing.
    So, thank you, Madam Chair, for scheduling this hearing so 
promptly as we have returned and, obviously, we have a lot of 
work to do.
    The Chairman. Thank you, Senator Cantwell.
    Senator Risch.

               STATEMENT OF HON. JAMES E. RISCH, 
                    U.S. SENATOR FROM IDAHO

    Senator Risch. Thank you very much, Madam Chairman.
    It is my honor and privilege today to introduce Ryan Nelson 
who is here with us today, and he has been nominated by the 
President to serve as Solicitor of the Department of the 
Interior.
    Ryan, we are glad you have agreed to do this, and we are 
appreciative of that.
    Mr. Nelson lives in Idaho Falls, Idaho, and is General 
Counsel for an Idaho-based company. All of you are familiar 
with Idaho Falls, Idaho, because you have listened to me wax on 
and on about the merits of the Idaho National Laboratory (INL) 
and INL is located in Idaho Falls.
    Most importantly to me today, Mr. Nelson's family is here. 
His wife and his seven children, all seven children, are here 
today for this hearing. So we are so honored that you would 
bring your family along.
    Mr. Nelson graduated from the Brigham Young University 
(BYU) Law School with honors and clerked immediately thereafter 
for Judge Henderson in the DC Circuit. He has had other 
clerkships, but most notably he was a clerk on the Iran/U.S. 
Claims Tribunal in The Hague in the Netherlands.
    He has served as Deputy Assistant Attorney General in the 
Environment and Natural Resources Division of the Department of 
Justice, and he has served as Special Counsel here in the 
United States Senate for the U.S. Senate Judiciary Committee.
    I think the President has made an excellent choice for the 
Solicitor's job, so I commend him to the Committee and I have 
confidence that after we hear from him the Committee will be 
well disposed to send his nomination to the Floor.
    I want to yield some time to my seatmate here, Senator Lee, 
who is modestly acquainted with the nominee.

       STATEMENT OF HON. MIKE LEE, U.S. SENATOR FROM UTAH

    Senator Lee. Thank you, Senator Risch, and thank you Madam 
Chair for letting me break in for a brief moment of personal 
privilege.
    Ryan Nelson and I have been friends for over 20 years. I 
got to know him in law school. He was known as a brilliant law 
student and he absolutely was.
    I helped recruit him to the law firm of Sidley Austin where 
I was working as Ryan completed his clerkships, and it was a 
real pleasure to work with him. We have remained friends ever 
since then. Ryan is known throughout the country as a lawyer 
who is dedicated to the rule of law and he was willing to do 
the hard work to figure out what the law requires and to advise 
his clients accordingly, to seek justice at every turn.
    In addition to his many other accolades and the fact that 
he is a father of seven, which Senator Flake will tell you, is 
actually a fairly small family, but----
    [Laughter.]
    He also is fluent in Dutch and Flemish. I am sure both of 
those talents will come in handy in his new position, should he 
be confirmed.
    Thank you very much. We look forward to hearing from you, 
Ryan.
    Senator Risch. Thank you, Madam Chairman, we yield back.
    The Chairman. Thank you, we appreciate that introduction 
and appreciate, again, the willingness of all of you to be with 
us today.
    The rules of the Committee which apply to all nominees 
require that they be sworn in connection with their testimony. 
So, I would ask that you all please rise and raise your right 
hand.
    Do you solemnly swear----
    [Protester interrupting.]
    The Chairman. Gentlemen, do you solemnly swear that the 
testimony you are about to give to the Senate Committee on 
Energy and Natural Resources shall be the truth, the whole 
truth and nothing but the truth?
    [Nominees answer, yes.]
    The Chairman. Before you begin your statement I will ask--
you can go ahead and be seated. I will ask three questions 
addressed to each of you before this Committee.
    Will you be available to appear before this Committee and 
other Congressional Committees to represent departmental 
positions and respond to issues of concern to the Congress?
    [Nominees answer, yes, we will.]
    The Chairman. Are you aware of any personal holdings, 
investments or interests that could constitute a conflict or 
create an appearance of such a conflict should you be confirmed 
and assume the office to which you have been nominated by the 
President?
    [Nominees answer, no.]
    The Chairman. Are you involved or do you have any assets 
held in blind trusts?
    [Nominees answer, no.]
    The Chairman. At this point in time we will lead off with 
Mr. Balash, again, who has been nominated to be the Assistant 
Secretary of the Interior for Land and Minerals Management.
    Mr. Balash, welcome to the Committee. To each of you as you 
begin your statements, if you would care to introduce any 
family members that you might have here with you today, we 
would certainly welcome that opportunity as well.

STATEMENT OF JOSEPH BALASH, NOMINATED TO BE ASSISTANT SECRETARY 
        OF THE INTERIOR FOR LAND AND MINERALS MANAGEMENT

    Mr. Balash. Chairman Murkowski, Ranking Member Cantwell, 
members of the Committee, I'm humbled to appear here today as 
President Trump's nominee for the position of Assistant 
Secretary for Land and Minerals Management of the Department of 
the Interior. It is an honor to be asked to serve in this role, 
and I thank Secretary Zinke for the opportunity to work for the 
people of the United States. Thank you as well for your 
remarks, Madam Chair, as well as those on behalf of Senator 
Sullivan.
    I could not be here today without the support of my wife of 
21 years, Brenda, who's here with me, seated behind me along 
with our youngest child. Our oldest child, our teenager, has 
elected to stay in school today since classes just began on 
Tuesday. My parents are also in the hearing room, Larry and 
Janie Balash, as well as a couple of my sisters.
    The Chairman. We welcome them.
    Mr. Balash. I grew up in a large Air Force family moving 
all around the United States. One of the rules my dad instilled 
in us was to leave a place better than we found it, whether 
it's a picnic area at a park or the family visiting center for 
those times he was called to alert duty.
    In the early 1980s, we were able to visit my grandparents' 
homes in the Pittsburgh area twice a year, and on those trips I 
observed the deterioration of the mighty steel industry that my 
grandpap, Dick Sharkins, cherished. At the time, he used to 
curse the EPA for shutting down the mills that employed him and 
his brother teamsters. At the time, I concluded the only choice 
we had was either good jobs or a clean environment.
    My dad's next duty station, however, was at Eielson Air 
Force Base in the interior of Alaska. This was truly a life-
changing event for me. We spent my early teenage years chasing 
salmon wherever his Subaru could take us. As I learned about 
the spawning cycle of salmon and their dependence on an entire 
system of water bodies, my appreciation for the value of clean 
water grew, and at the same time I began to learn about the 
permanent fund dividend program and where our state's wealth 
came from.
    The reality of how Alaska managed to produce so much oil 
while sustaining healthy salmon populations caused me to 
revisit those earlier conclusions. I realized that with the 
right approach, you can have responsible development without 
sacrificing clean air and water.
    As I wrapped up my collegiate education, I had an 
opportunity to work for my hometown legislator in Alaska's 
capital. I spent the next eight years working as a Legislative 
Aide and learned that our ability to get things done in public 
service depends on relationships across regions, across party 
lines and despite differences on separate issues.
    In 2006, I made my way from the Legislative Branch to the 
Executive Branch of state government, and at the Department of 
Natural Resources (DNR) I was charged with managing and leading 
an organization that manages one of the largest portfolios of 
land and water in the world. While I was there we resolved 
disputes that bedeviled the state for decades, established new 
standards for the transfer of ownership in oil and gas 
properties. We oversaw the placement of the first offshore 
platform in state waters in nearly 20 years, we opened the 
first state park in decades with a view of Denali that rivals 
any other I've seen and we published maps with clear 
delineations of trails to enable hunters and anglers to access 
public lands while respecting private property.
    I'm proud of what we accomplished at DNR while I was there, 
but all of this was really done by the people who carry out the 
day-to-day functions of the Department.
    During my time, I learned that managing people who are 
smarter than you and know more about the details, requires an 
open management approach in order to drive the organization 
toward complex decision-making. You have to provide a 
transparent view into what you're trying to do and why you want 
to do it. I believe that an approach like this helps ensure the 
organization, as a whole, focuses on the bigger picture. If 
confirmed, I would take such an approach at the Department of 
the Interior.
    The public lands of the United States contain a tremendous 
bounty of natural resources, resources that represent the 
assets of the American people. When managed effectively, these 
assets can deliver opportunities to recreate, appreciate and 
generate wealth. Under Secretary Zinke's leadership and the 
goals established by President Trump, I believe the Department 
of the Interior can deliver on this promise.
    My background and the experiences I've gained managing the 
assets of my home state have prepared me well to serve as the 
Assistant Secretary for Land and Minerals Management and it 
would be my honor to do so.
    If confirmed, I will work relentlessly to produce the value 
the American people deserve from their public lands and this 
includes recreational access, responsible energy development 
and active management of the Department's assets. I'll do so 
within the confines of the laws established by the Congress and 
with the dedication to transparent leadership and 
accountability.
    Chairman Murkowski, thank you for the opportunity to appear 
before the Committee today.
    I look forward to your questions.
    [The prepared statement of Mr. Balash follows:]
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. Thank you, thank you very much.
    Mr. Glick, welcome.

STATEMENT OF RICHARD A. GLICK, NOMINATED TO BE A MEMBER OF THE 
              FEDERAL ENERGY REGULATORY COMMISSION

    Mr. Glick. Thank you.
    Chairman Murkowski, Ranking Member Cantwell and members of 
this Committee, thank you for the opportunity to appear this 
morning as a nominee to serve on the Federal Energy Regulatory 
Commission.
    Senator Cantwell, I want to begin by thanking you so much 
for the very generous statement that you made. I really 
appreciate everything you've done for me. I want to thank you 
and Senator Schumer for the confidence you all have shown in me 
by putting my name forward for this position.
    I'm especially grateful to Senator Cantwell for bringing me 
back to work in the United States Senate, where I spent six-
and-a-half years in the 1990s. Although the faces have changed 
and some of the issues have changed, the Senate, particularly 
the Senate Energy and Natural Resources Committee, remains a 
special place. It has been a privilege to work for this 
Committee and Senator Cantwell over the last 18 months and with 
this Committee's extremely professional staff on both sides of 
the aisle.
    I also want to thank Chairman Murkowski for working 
tirelessly to expedite this nomination process.
    And I would be remiss if I failed to mention Senator Dale 
Bumpers, who served as a senior member of this Committee and 
the Ranking Democrat when I worked for him in the 1990s. I owe 
so much to Senator Bumpers for taking a chance on me and for 
serving as a mentor on politics and life, but especially for 
instilling in his staff the notion that public service is a 
noble calling.
    I also want to recognize my wife, Erin, and our son 
Alexander, who have joined me here today. Alexander just 
started third grade a couple days ago, and he's already 
enjoying his first day off for the year.
    [Laughter.]
    They are both a constant reminder of what is really 
important in life.
    I have had the opportunity to work on a number of major 
energy issues over my career. As a young lawyer at a 
Washington, DC, law firm I helped to represent public power 
utilities and utility regulators. As a Legislative Director and 
Chief Counsel to Senator Bumpers, I worked on several 
provisions that were included in the Energy Policy Act of 1992 
and helped to draft bipartisan legislation addressing electric 
industry restructuring. As a Senior Policy Advisor to Energy 
Secretary, Bill Richardson, I worked on the Clinton 
Administration's response to what at the time was known as the 
``western energy crisis''. Thereafter I worked for a multistate 
electric utility in the West with a significant amount of 
baseload electric generation, PacifiCorp. I then went to work 
for what is now known as Avangrid, an energy holding company 
that is one of the biggest renewable electricity generators in 
the U.S. and operates several gas and electric distribution 
utilities in the Northeast. And most recently, I have had the 
honor of serving as a General Counsel for the Minority on this 
Committee where I have worked on several energy policy issues, 
including the bipartisan energy bill that's currently pending 
on the Senate calendar.
    On each occasion, I have witnessed the important roles that 
FERC plays. FERC's decisions can have a significant impact on 
the lives of everyday Americans.
    For instance, the Commission's inability to come together 
on a unified response during the height of the western energy 
crisis in 2000 caused consumers to pay more for electricity and 
natural gas than they should have. If I am so fortunate to be 
confirmed by the Senate to serve as a FERC Commissioner, I 
intend to work with my colleagues to safeguard the public's 
interests.
    I also look forward, if confirmed, to working with my 
fellow commissioners to help facilitate the ongoing dramatic 
transformation to the ways Americans produce and consume 
energy. This revolution has the potential to substantially 
improve our energy efficiency, reduce emissions, grow the 
economy and create millions of new jobs. FERC, working with 
state regulators, can help eliminate barriers to the adoption 
of these new technologies and processes.
    Senator Cantwell and Chairman Murkowski, thank you again 
for the opportunity to appear before this Committee today. I 
also look forward to answering your questions and the questions 
of your colleagues.
    [The prepared statement of Mr. Glick follows:]
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Senator Barrasso [presiding]. Thank you and 
congratulations, Mr. Glick.
    Mr. McIntyre, please proceed.

STATEMENT OF KEVIN J. McINTYRE, NOMINATED TO BE A MEMBER OF THE 
              FEDERAL ENERGY REGULATORY COMMISSION

    Mr. McIntyre. Thank you, Senator.
    Good morning. Good morning, Ranking Member Cantwell and 
members of the Committee on Energy and Natural Resources.
    I am honored to address you today as a nominee to a vital 
independent agency that has been the principal focus of my 
career, the Federal Energy Regulatory Commission.
    I begin by thanking the President of the United States for 
this nomination. I am humbled by the confidence that he has 
placed in me, and if confirmed by the Senate, I will do my 
utmost to exceed the high standards that the American people 
expect of their public servants.
    Thirty years ago this summer, I first discovered FERC when, 
as a law clerk at an energy law firm here in Washington, I was 
assigned to a natural gas rate matter. What I encountered in 
that first brush with FERC was a bustling, multifaceted agency 
with a language all its own and a mission whose importance was 
obvious to me even then as a young novice. That first 
experience triggered a lifelong passion for the field of energy 
law and policy, and it set me on course for a career in the 
field of energy regulatory law.
    Over the past three decades, I have counseled and 
represented clients in nearly all industry sectors, with many 
different market roles, including transmission and 
transportation providers, customers of such entities, 
generators of renewable, nuclear- and fossil-fueled 
electricity, integrated utility companies, energy producers, 
marketers and traders, a Native American tribe, and many 
others. This diverse experience has prepared me for the scope 
and variety of matters within FERC's jurisdiction and has 
helped me to appreciate the broad range of perspectives on the 
complex economic, environmental, community and national 
security issues that come before FERC.
    It is impossible for me to separate my enthusiasm for 
energy law and policy from my equally fervent passion for the 
practice of law, a profession that is honorable and essential 
for its role in giving voice to the rights and interests of 
all, and ultimately for advancing the cause of justice in cases 
large and small.
    I have the privilege of serving as co-head of the global 
energy practice of Jones Day, and in that capacity working with 
and learning from colleagues whom I regard as among the finest 
lawyers in the world. I have observed first-hand how excellence 
in legal advocacy has led to significant improvements in law 
and policy.
    My belief in the importance of excellence in legal practice 
and processes and their role in bringing about a more just 
society goes hand-in-hand with my belief in the importance of 
the rule of law, which my firm has worked to strengthen through 
pro bono and charitable efforts around the world.
    I raise this background and these beliefs because they have 
engendered in me a philosophy of governance that I would bring 
to FERC, if confirmed. Specifically, I believe that any 
consideration of potential action by FERC, or by any 
governmental body, must begin with a firm understanding of the 
applicable legal requirements and that any action taken must 
satisfy those requirements in full. Because many situations 
permit a range of equally lawful decisions, including some with 
profound policy implications, it is also critical to ensure a 
full airing of all views on the matter, with input by 
stakeholders, including the public.
    If confirmed, I would be guided by these principles, rooted 
in the rule of law and in a commitment to processes that are 
open, transparent and fair, with an insistence on excellence in 
the workings of government. I would strive to bring an even-
handed and judicious approach to each matter, with a focus on 
listening, which is indispensable to fairness and sound 
decision-making.
    I would like to thank my family and others who are here 
with me today. I begin with my dear wife Jenny, who, besides 
being a heroically supportive spouse and mother to our 
children, is also a terrific lawyer, on whose counsel I rely 
daily. I am delighted that our children are here. Lizzie, a 
second-grader at St. Thomas More Cathedral School in Arlington; 
Tommy, a new kindergartener, also at St. Thomas More; and wee 
Annie, in pre-K at the Reed School in Arlington. I also thank 
my parents, Jack and Alice McIntyre, for being here, and, yes, 
for enduring my early years with love and patience. My views on 
the importance of public service were formed in observing my 
dad's long career in the U.S. Air Force and my mom's own 
sacrifices as a military spouse in service of our country. 
Finally, allow me to acknowledge my parents-in-law, Irene and 
Leger Brosnahan, and the other family members, dear friends and 
colleagues who are here today. I thank them all for their 
enduring support.
    With that, I thank you for this opportunity to appear 
before the Committee, and I look forward to answering your 
questions.
    [The prepared statement of Mr. McIntyre follows:]
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Senator Barrasso. Thank you very much, Mr. McIntyre. 
Congratulations, again, on your nomination.
    Mr. McIntyre. Thank you, Senator.
    Senator Barrasso. Mr. Nelson, we welcome your comments.

  STATEMENT OF RYAN NELSON, NOMINATED TO BE SOLICITOR OF THE 
                   DEPARTMENT OF THE INTERIOR

    Mr. Nelson. Senator Barrasso, Ranking Member Cantwell and 
members of the Committee, I am honored to appear before you as 
the President's nominee to be Solicitor at the Department of 
the Interior. I ask for your consent to the President's 
nomination.
    I am joined today by my lovely, ever supportive and 
eternally patient wife, Barbara, and our seven kids--my son, 
Baerett, who is interning here at the Senate; and then Ashley, 
Sophie, Savannah, Olivia, Russell and Lucy. Also with me are my 
parents, Doug and Billie Nelson. My father is currently 
fighting and winning his battle with cancer, and I am very 
grateful that he can be here today. My father-in-law, Mark 
Baer, and his wife, Shirl, are also here. They are serving 
collectively their seventh mission for the church at Fort Lee 
Army Base in Prince George, Virginia. My sisters, Angela 
Groberg and Hayley Potter, are also here with their sons, Jack 
and Isaac. And other family friends are present and watching 
this hearing online.
    I'm grateful to Senator Risch for his kind words of 
introduction. I have long admired Senator Risch as a great 
Idaho leader, and he has brought his tenacity to the Senate 
where he gets great work done for the American people.
    I'm grateful for the public support of Senator Crapo. He is 
from my hometown, and I was at his home or he was at our home 
when I was just 16 and gave me a great early interest in legal 
and political issues.
    And I do want to thank Senator Lee for his kind 
introduction. He's been a great friend and colleague over the 
years as well.
    I've been nominated to serve as Secretary Zinke's Chief 
Counsel and lead the legal team at the Department of the 
Interior, a team of 300 lawyers, who serve 67,000 employees and 
manage 20 percent of the land of the United States. I welcome 
the opportunity, if confirmed, to further the mission of the 
Department, to protect and manage the nation's lands, natural 
resources and cultural heritage.
    I was born and raised in Idaho, a sixth-generation Idahoan. 
My playground growing up was Yellowstone and Grand Teton 
National Parks, Island Park, where our family cabin was on 
leased federal land, and Craters of the Moon National Monument 
and Preserve. I have used federal lands in Idaho and most of 
the states for a wide variety of outdoor activities including 
boating, skiing, hiking, camping, hunting and fishing.
    Growing up in Idaho, I, in Shakespeare's words, found 
``tongues in trees, books in running brooks, sermons in stones 
and good in everything.''
    Although I grew up and was educated in the West, I spent my 
early legal career here in Washington. I first came to DC to 
work for the Senate Legal Counsel right after President Clinton 
had been impeached by the House of Representatives. I recall 
walking up to Capitol Hill for my first time to start work on 
December 28th, with the city cold, dark and empty and a deep 
sense of awe for this Senate body, which I hold today. I was 
grateful to assist the Senate Legal Counsel team that was calm 
and even-handed in a hot, political environment as we provided 
quick, unbiased and accurate legal advice to enhance the 
political process.
    After an appellate clerkship and several years practicing 
as an appellate lawyer, I was appointed Deputy Assistant 
Attorney General for the Environment and Natural Resources 
Division (ENRD) at the Department of Justice. There, I gained a 
deep understanding and respect for natural resource and 
environmental law as well as the important mission of the 
Department of the Interior, which is, by far, the Division's 
largest client.
    I managed some of the most complex and natural resource 
legal questions and argued several cases and appeals. The ENRD 
political team developed productive working relationships with 
the exceptional career attorneys, relationships which, if 
confirmed, I hope to call on as a colleague, client and friend.
    In 2009 I returned home and have since served as General 
Counsel for one of Idaho's largest corporations, Melaleuca, a 
$1.75-billion worldwide company.
    I have seen first-hand the impact government policies have 
on working citizens and families. I am proud that much of my 
efforts have been spent protecting the ``little guy,'' the 
average American who is working hard and trying to get ahead.
    If confirmed, I am committed to use my extensive legal 
background to accurately interpret the law, follow it and 
fulfill the Department of the Interior's vital mission, to 
protect our country's resources and heritage for the next 
generation.
    I am convinced that President Trump's and Secretary Zinke's 
goals for the Department will not only preserve, but will 
increase our value of our natural resources for future 
generations.
    Thank you.
    I look forward to your questions.
    [The prepared statement of Mr. Nelson follows:]
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    The Chairman [presiding]. Thank you.
    Again, gentlemen, I apologize that I had to step out.
    I am going to defer to Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair.
    I want to say, again, congratulations to all of you on your 
nominations. Each of you come with a deep resume of experience. 
I think it is important. So thank you for that.
    I wanted to ask you, Mr. McIntyre, obviously, FERC is an 
agency that can play such an important role in prohibiting 
manipulation. We saw in the Western energy crisis, the 
manipulation to a great degree of electricity with various 
schemes that I can still recall. Fat Boy, Get Shorty, a whole 
variety of things that were just about moving power in and out 
of markets as a way to spike rates.
    Since we have given the Commission authority, they have 
investigated over 100 cases of alleged manipulation and 
collected a half a billion dollars in civil penalties for 
market manipulation. Are you committed to policing the energy 
markets and keeping them free from this kind of manipulation?
    Mr. McIntyre. Thank you for the question, Senator.
    Yes, I absolutely am. FERC's role in enforcement is a very 
important one, and I believe in a robust program of 
enforcement. If confirmed, I would bring that view to my work 
at the FERC.
    Senator Cantwell. So you do not believe that it is just 
calling balls and strikes but protecting the public interest 
standard as it relates to just and reasonable rates for 
electricity and natural gas?
    Mr. McIntyre. I think it goes beyond just just and 
reasonable rates. As you suggested in your question, the 
Congress did, in the Energy Policy Act of 2005, give express 
authority to the FERC to police market manipulation in energy 
markets regulated by the FERC. That's something that comes up 
in a number of different contexts, and I think it's essential 
that the FERC get that right. This goes back to my assistance 
on the rule of law.
    Senator Cantwell. Thank you.
    Mr. Balash, can you talk to me about royalty rates? Where 
do you think we are on royalty rates and whether you think that 
they are, on coal and oil and gas leases, too high, too low? 
Will you seek to lower them? What is your philosophy on that?
    You and I have not had a chance to meet yet, so----
    Mr. Balash. Thank you, Senator.
    When it comes to the collection of royalties and rents, you 
know, that is the public's ownership interest in the 
subsurface, the mineral estate that belongs to all of us. And 
when it comes to establishing those rates it needs to be done 
with an eye toward not only earning a return for the American 
people but also with an eye toward the circumstances and 
economic conditions under which that particular resource can be 
extracted.
    In some cases, depending upon the price environment, the 
specific geological challenges and also the access to 
infrastructure, sometimes those rates need to be higher 
relative to other places and sometimes lower.
    In my experience at DNR, we increased the minimum bid due 
on bonuses paid at the time of an auction. We also increased 
annual rental rates and, in some circumstances, very tightly 
controlled and defined, according to statutes, reduced 
royalties. So, it really does depend on the circumstance at the 
time.
    Senator Cantwell. Well, I will follow up on that. In what 
areas were they reduced and why? Maybe that is something you 
and I can either talk about or follow up on.
    Mr. Nelson, how do you look at this as Solicitor? The Obama 
Administration had said that we had outdated rules on royalties 
because they had not been updated in 34 years. How do you look 
at this issue in the agency's responsibility on royalties?
    Mr. Nelson. Senator, I think the agency needs to look at 
the rules and review them and make sure that they are 
adequately providing value for the American people. Obviously, 
any new rules would have to be adopted consistent with the APA, 
and I would take a hard look at that once I get in.
    Senator Cantwell. Do you think after 34 years--is it time 
to update, to look at the environment?
    Mr. Nelson. I really don't have an opinion on that, 
Senator. I think it depends on the circumstances. It could be 
okay, but maybe there is a need to update.
    Senator Cantwell. Okay.
    I think I will follow up with you on that.
    Mr. Glick, cyberattacks on our electric utilities and grid 
are a constant and growing threat. Are you satisfied that we 
are doing enough here? Do you think that there is more that 
needs to be done to protect the grid?
    Mr. Glick. Well, thank you, Senator.
    Clearly, there's more that does need to be done. Utilities 
are under, the grid is under constant attack from both nation 
states but other bad actors as well. And we saw a report that 
just came out yesterday that indicated that more utilities 
were--systems were penetrated. That is something we need to 
take a look at.
    I think that the FERC has, along with NERC, pursuant to its 
reliability authority, subjected utilities to various 
standards, cybersecurity standards, physical security standards 
as well, to hopefully prevent and limit the ability of others 
to attack.
    But also, we need to take a look at our supply chain. FERC 
asked NERC, I think it was last year, to come up with a 
rulemaking to address the supply chain of utilities, especially 
as it relates to their industrial control systems. And it's 
something, I think, we need to follow through on. So if I am 
confirmed, I certainly will want to work on that.
    Senator Cantwell. Thank you.
    Thank you, Madam Chair.
    The Chairman. Senator Barrasso.
    Senator Barrasso. Thank you very much, Madam Chair.
    Mr. Glick, I sure appreciated your comments there about the 
threats, the attacks on the grid and supply chain and 
reliability.
    I am going to ask you a question first, Mr. McIntyre, and 
then you, Mr. Glick.
    Wyoming is the nation's leading coal-producing state. The 
coal industry is responsible for thousands of certainly, 
Wyoming jobs, and billions in state and local government 
revenues. But coal also plays a critical role in electric grid 
reliability and resilience.
    Unlike other generation sources, coal-fired power plants 
have fuel storage on site and the ability to generate power 24 
hours a day, 7 days a week.
    In a recent FERC podcast, Acting Chairman Neil Chatterjee 
recognized the importance of maintaining the nation's coal 
fleet. Specifically, he said that the baseload generation 
resources, such as coal power plants, should be recognized as 
an essential part of the fuel mix for power generation.
    So Mr. McIntyre, first to you. Do you share the Acting 
Chairman's views and do you have any comments you would like to 
make about that?
    Mr. McIntyre. Thank you for the question, Senator.
    I confess, I did not see the podcast or hear the podcast. 
However, as you suggest, coal, historically, has played an 
enormously important role in our nation's generation of 
electricity. And you use the term baseload, the concept being 
the electric generating plants that can essentially run full 
tilt, around the clock, often nuclear-fueled power plants are 
mentioned in this context as well. The importance of such 
resources cannot be denied; however, FERC is not an entity 
whose role includes choosing fuels for the generation of 
electricity. FERC's role, rather, is to ensure that the markets 
for the electricity generated by those facilities proceed in 
accordance with law.
    I think, overall, the FERC's role should be to take a hard 
look at these very important questions and determine where 
FERC's jurisdiction actually gives it a role in making 
decisions that could ensure that there is proper attention to 
the reliability and resilience impacts of what have 
traditionally been thought of as baseload generation.
    Senator Barrasso. Alright, thank you.
    Mr. Glick?
    Mr. Glick. Well, Senator, as Mr. McIntyre suggested, coal 
certainly makes up a significant portion of the grid. And, as I 
understand it, coal and natural gas combined make up about 64 
percent of all electric generation. So, for me, it's a question 
of reliability.
    The Department of Energy Grid Study that was released 
recently, I had a chance to review it, essentially suggested 
that the significant loss of baseload generation of both coal 
and nuclear has not impaired reliability to date, but they also 
suggested it's something we need to keep an eye on and look for 
in the future. And so, I think it's both, both FERC and the 
Department of Energy need to keep an eye on that and continue 
to study the matter.
    Senator Barrasso. Great. Thank you.
    Mr. McIntyre, the Department of Energy recently released 
the staff report to the Secretary on electricity markets and 
reliability, known as the Grid Study. The study expresses 
concerns that wholesale electricity markets do not adequately 
compensate coal and nuclear baseload power generation 
resources. If this problem continues, baseload plants continue 
to be taken offline. This study concludes that the reliability 
and resilience of the nation's power grid may be at risk. To 
fix the problem the study recommends that the FERC take steps 
to improve how electricity markets compensate baseload power.
    As incoming FERC Chairman, what action would you take to 
improve how electricity markets compensate this baseload power 
generation?
    Mr. McIntyre. Thank you for the question, Senator.
    I should note that the FERC already has a good bit of work 
underway in this area. They convened a series of conferences 
earlier this year on price formation in energy markets with a 
particular eye toward issues along those lines. And if 
confirmed to the FERC, I would commit to looking very carefully 
at these issues and giving them the attention they deserve.
    Thank you.
    Senator Barrasso. Mr. Balash, on July 6th Secretary Zinke 
issued an order to streamline the Bureau of Land Management's 
review process for applications to drill oil and gas on federal 
land. I am encouraged by his order.
    As Secretary Zinke explained, BLM has nearly 3,000 pending 
applications and takes an average of 250 days to process an 
application. Oil and gas permitting delays directly threaten 
our energy security. It threatens American jobs. It threatens 
economic stability in many small communities.
    As Assistant Secretary for Land and Minerals Management, it 
will be your responsibility to implement Secretary Zinke's 
orders. What steps will you take to ensure that the BLM field 
offices have the resources that they need to relieve this 
incredible backlog of oil and gas permit applications?
    Mr. Balash. Thank you, Senator Barrasso.
    When I assumed the position at the Alaska Department of 
Natural Resources in 2010, along with Senator Sullivan, we 
found ourselves in a circumstance not unlike this, with a 
tremendous backload of applications for permits, rights-of-way 
authorizations. We immediately undertook a review, along with 
the leadership of the Department, the career professionals, to 
understand what the cause of that backlog was, why they weren't 
able to process them in a timely manner, what some of the 
administrative cycles and appeals might be and also what 
resources they needed additionally. We came up with a specific, 
robust plan to address all of those questions, including 
funding positions, accounts and even worked with our 
legislature to identify opportunities to, maybe, streamline 
statutory procedures in a more modern way.
    The advent of information technology really enables us to 
speed up some of those processes that used to require on a more 
mundane, sort of, paper format. So I'm pleased to say that we 
were able to eliminate more than 50 percent of that backlog and 
ultimately, I would seek to perform a similar review and result 
here at the Department of the Interior.
    Senator Barrasso. That is very encouraging.
    Thank you, Madam Chairman.
    The Chairman. Thank you, Senator Barrasso.
    Senator Heinrich.
    Senator Heinrich. Thank you, Madam Chair.
    Mr. Balash, I want to bring your attention to the area 
around Chaco Culture National Historic Park as we spoke a 
little bit in my office yesterday and the role, in particular, 
that BLM plays in managing that surrounding area.
    As I mentioned to you, it is a very complicated location. 
There are BLM lands and minerals, Navajo tribal lands and 
minerals, as well as individual Indian allotments, all mixed 
together in a very complex, sort of, checkerboard pattern. And 
that is not to mention the state lands and state sections, the 
private lands that are also mixed into this area.
    Chaco is a truly unique site. It is recognized 
internationally for its cultural resources, and it has been a 
sacred site for both the Pueblo tribes as well as the Navajo 
nation for as long as anyone can remember.
    Last year the BLM and the BIA signed an agreement to be co-
lead agencies on the Resource Management Plan (RMP) Amendment 
that is currently underway for this area. Having both of these 
agencies at the head of the table, working together, I believe, 
is critical to protecting the important cultural resources and 
religious sites while also planning for future energy 
development in this basin.
    Will you commit to working with the New Mexico delegation 
to keep that agreement and working relationship intact and to 
ensure that the tribal interests are given full consideration 
in this RMP process?
    Mr. Balash. Thank you, Senator Heinrich.
    Having worked on a smaller level, but equally complex basis 
in multiple locations around my home state I understand the 
value of bringing everybody to the table and working in a very 
collaborative manner. You do have my commitment to reach out 
and work with the leadership at BIA to continue the agreement, 
assuming it works for both parties.
    There's a lot, I'm sure, to review upon confirmation, and I 
look forward to working with your office on that.
    Senator Heinrich. Thank you, and I as well.
    I want to switch over real quick to our two FERC nominees, 
and I want to follow up on some questions from Senator 
Barrasso.
    I, too, have been following very closely DOE's recent staff 
report on power markets. I was pleased that they concluded that 
the grid is operating reliably. I am concerned that the term 
baseload power has potentially become a bit of, less of an 
engineering term and more of a political term in recent years. 
In particular, the indication within that report that 
potentially FERC should modify existing competitive markets for 
bulk power as an attempt to either prop up or even subsidize 
central generation technologies that are no longer cost 
competitive in current market conditions.
    Would each of you care to share your thoughts, in 
particular, on this DOE report and, in particular, suggestions 
to FERC?
    You can flip a coin for who goes first. Mr. McIntyre, it 
looks like you are ready.
    Mr. McIntyre. Thank you, Senator.
    It's a complex area and it touches upon a couple of 
different aspects of the FERC's jurisdiction, not just the 
oversight of energy markets and the assurance of just and 
reasonable rates in those markets, but also the reliability 
component of protection of the grid and the issues go to both 
of those areas of FERC's jurisdiction.
    What I would assure you, if confirmed by the Senate, is 
that I would give the matter very careful consideration. It 
does also overlap with work that's currently underway at the 
FERC. In light of that it wouldn't be appropriate for me to 
suggest a specific policy position on it here.
    Senator Heinrich. Mr. Glick?
    Mr. Glick. Senator, like Mr. McIntyre, I'm reluctant to 
comment too specifically because it's a pending matter. I will 
note that the Commission had a 2-day technical conference on 
this matter both, I think, on May 1st and 2nd of this year and 
there's been a number of comments filed since. So it's worth 
looking at the record.
    I will say your comment about prop up, I think, is very 
important. The Commission doesn't have the authority nor should 
it prop up failing technologies or technologies that are 
uneconomically competitive. I think the DOE Grid Study suggests 
that there are some reliability attributes that those 
technologies provide.
    I think so far, as I mentioned earlier, the Grid Study 
found that the loss of those technologies, the loss of some 
baseload generation hasn't had an impact on reliability. But as 
I said before, it's worth looking at. I think it's certainly 
worth studying, continuously studying, but certainly the 
Commission shouldn't be in the business of propping up 
technologies.
    Senator Heinrich. Thank you both.
    The Chairman. Thank you.
    Senator Flake.
    Senator Flake. Yes, Mr. Balash, Secretary Zinke has 
frequently spoken of restoring trust between the BLM, those who 
use federal lands and those who live near those lands. Coming 
from a state that is roughly 42 percent federally owned, only 
about 18 percent of Arizona is privately owned, I understand 
the actions of BLM have significant impacts on the economies in 
rural Arizona. I often hear from constituents about issues such 
as BLM mismanagement of wild burrows, problems with access to 
federal lands and slow permit processing times.
    What opportunities do you see for the Bureau to improve 
engagement with local stakeholders in actions such as 
developing land management plans and cooperatively managing 
these critical resources in Arizona?
    Mr. Balash. Thank you, Senator Flake.
    As a former adjacent landowner and manager in my home 
state, I got to experience first-hand various planning 
processes and NEPA reviews with BLM and other federal agencies. 
And I would say that more than anything I hope to instill, as a 
Westerner, the perspective of being, not just a good neighbor, 
but a quality neighbor in the Western part of our nation.
    These reviews and processes conducted with cooperating 
agency recognition of these other governments needs to be more 
than just a paper exercise. There needs to be real 
consideration given to the comments that come in from those 
state, local and tribal governments that we will work with in 
these processes.
    Senator Flake. Thank you.
    Regarding BLM permit processing, Arizona has a long 
history, as you know, of responsible mining that has taken 
place on BLM, Forest Service and private lands. Because of the 
prevalence of BLM lands throughout the state, many mines on 
private lands need BLM permits for access or relating land 
disturbance activities.
    It is shocking to hear stories about the length of time it 
takes to get the most straightforward mining permit in Arizona. 
For example, there is a proposed gold mine near Quartzsite that 
they have been trying to get up and going for years. That is a 
very small, simple mine using no toxic chemicals on a few acres 
far away from the nearest settlement. It took them several 
years just to get their BLM permits in what can only be 
described as a very haphazard process.
    We cannot afford to have land management agencies be so 
slow to work with those who want to pursue much needed economic 
activity on these public lands.
    I hope that with your experience at the Alaska Department 
of Natural Resources, you can bring to bear those experiences 
on this agency. Do you think that you can speed up the permit 
time?
    Mr. Balash. Well, thank you, Senator Flake.
    I believe that the overall management approach needs to 
reflect the fact that these lands belong to the public, not 
necessarily to the agencies that manage them, and with that 
change in perspective or attitude we can be timely, efficient 
and certain in the administration of permit applications and 
adjudications.
    Senator Flake. Right. Well, thank you.
    Mr. Nelson, your position on BYU football ought to be 
enough to secure your nomination, I am sure. But be that as it 
may, one area that we want to talk about is cooperation between 
Arizona and the Department on tribal water right settlements.
    Just this morning I reintroduced the Hualapai Tribes 
Comprehensive Water Rights Settlement Act. We have several 
settlements that are in need of legislative action this year, 
some are in the negotiation phase, others are being 
implemented. Can you explain how your previous experience at 
DOJ will help guide you as you work with us on these water 
right settlements?
    Mr. Nelson. Thank you, Senator, for the question.
    When I was at the Department of Justice I had the 
opportunity to work with Michael Bogert, who was Counselor to 
Secretary Kempthorne, and he was heavily involved on these 
Indian water rights settlements and they are complicated, to 
say the least.
    You have a situation where there's sometimes more claims on 
the water than there is water and the tribes, their rights, 
often predate many of the other water rights that exist and may 
be being used. So everyone needs to come to the table. What I 
found and what I saw was that the settlement discussions were 
much more beneficial than years of protracted litigation that 
ultimately, in many cases, didn't actually work to any good.
    There are guidelines on how to settle those, and I would 
intend to follow those and help expeditiously push those 
forward.
    Senator Flake. Right. Thank you.
    The Chairman. Senator King.
    Senator King. Thank you, Madam Chair.
    Mr. Balash, I understand that as Commissioner of Natural 
Resources in Alaska you filed some claims with regard to ANWR 
for exploratory drilling and other claims. Now in your new 
position you would be in a position to grant those claims. Do 
you intend to recuse yourself? How are you going to handle 
this, what looks to me like, conflict?
    Mr. Balash. Thank you, Senator King.
    The actions that we took at the Department of Natural 
Resources in this particular context, as I recall, were 
directed at the Fish and Wildlife Service. That is not going to 
be one of the bureaus or services that reports to the position 
I hope to be confirmed to.
    Nevertheless, I absolutely commit to seek all the guidance 
and advice I can get from our ethics counselor at the 
Department of the Interior and follow that guidance to ensure 
that there is no conflict in any particular decision that might 
come----
    Senator King. And I do not know the details of the issue, 
but I think this is a question of appearance and public 
confidence in our governmental process. So, I hope you will 
consult with the ethics folks on that. Thank you.
    On the baseload issue that Senator Heinrich mentioned, I am 
also disturbed that the term baseload is becoming a political 
term and not necessarily a scientific term. My only request is 
when you are making these kinds of decisions, let's just go 
with the science. I mean, I think that is obvious, but I think 
that is the fall back. We will go with the science in terms of 
what the grid can stand and what it cannot and where 
reliability is, but I think that it is important that FERC not 
get tangled up in, advertently or inadvertently, favoring one 
technology over another and getting involved in the politics of 
generation. I hope, Mr. McIntyre, that is the position you will 
take.
    Mr. McIntyre. Thank you, Senator.
    Yes, I mean, FERC does not pick fuels among different 
generating resources, and so it is important that it be open 
to, as you say, the science which I would expand somewhat to 
include also the characteristics of reliability and the 
characteristics of economics and the other features that are 
very important to satisfying the energy needs of our nation. 
But yes, I absolutely commit to making decisions on those 
bases.
    Senator King. Mr. Glick, FERC has taken preliminary steps 
over the past couple of years to reduce barriers preventing 
distributed energy resources including, particularly energy 
storage, to reducing those obstacles. Do you believe that FERC 
has a continuing role in being sure that all resources can 
compete equitably and evenly and the full value should be 
provided for things like storage or distributed energy or 
demand response kinds of resources?
    Mr. Glick. Yes, Senator.
    You know, much of distributed energy resources is regulated 
at the state level. It's behind the meter technology, in many 
cases, whether it be rooftop solar in some cases, storage or 
even demand response.
    On the other hand, those technologies also provide benefits 
or can provide benefits at the wholesale market. So, for 
instance, energy storage plays a potential to provide 
significant reliability benefits at the wholesale electric 
markets.
    As you know, the Commission proposed a rulemaking recently 
that would allow the storage facilities, as well as distributed 
energy resources, an aggregate to participate in wholesale 
energy markets. I don't want to comment on a specific matter 
that I might be called upon to vote, but I will say that the 
Commission does have a responsibility to prevent undo 
discrimination against technologies. It's something, I think, 
the Commission needs to take a look at. If I'm confirmed, I 
certainly will do that.
    Senator King. Well I think for both of you, you are 
entering into these positions, assuming you are confirmed, at a 
time of tremendous dynamism in the industry; an industry that 
essentially was unchanged for 100 years, and now, suddenly, 
there are so many different options.
    That is going to be a real challenge to be sure that a 
regulatory system that was established 70 or 80 years ago can 
meet the needs and respond to the technologies of this, of the 
coming decades, 
both in terms of economics but also in terms of environmental 
externalities.
    Mr. McIntyre, your thoughts?
    Mr. McIntyre. I agree fully with that perspective, Senator. 
The----
    Senator King. This is not your grandfather's FERC.
    Mr. McIntyre. It is not.
    The FERC operates under statutory standards that were set 
in law decades ago, justness and reasonableness, avoidance of 
undo discrimination, and yet our energy industry has, of 
course, modernized itself significantly since then. And so, the 
challenge at the FERC is to determine how to apply these 
statutory standards to today's energy industry.
    Senator King. I would hope that as you work through these 
issues if you see areas where those statutes, which as you 
point out are decades old, could stand some upgrading or 
improvement or modernization, you will let this Committee know 
so that we can work with you to be sure you have the 
legislative and statutory tools necessary to respond to today's 
market conditions. I hope you will do that.
    Mr. McIntyre. Yes, thank you, Senator.
    Senator King. Thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator King, that was absolutely 
right in line with what I was going to be asking next. I was 
going to raise it in the context of----
    Senator King. I was afraid you were going to say absolutely 
wrong.
    The Chairman. Oh, no, no.
    [Laughter.]
    You are right on the money this time.
    Senator King. That long pause made----
    The Chairman. Yes, yes, yes. I wanted you to think about 
it. But you mentioned the evolving nature of the energy markets 
and where we are and an agency that is somewhat locked into 
your father's energy world. So whether it is the energy storage 
that you have raised, the integration issues that we know 
present themselves, the siting infrastructure--
    Siting has become more and more difficult and certainly 
more complicated whether it is for a wind farm, transmission 
lines, natural gas pipelines, whatever it may be, and so how 
you define or arrive at the appropriate balance of the 
environmental concerns that need to be addressed with the needs 
of the public to have adequate infrastructure, these are 
important. These are imperatives, and finding that balance is 
important.
    We expect that you do that in your role. But to Senator 
King's point, I would certainly want your assurance that where 
you see whether it is the bureaucratic red tape or just the 
overlay of regulations that have come over the years that have 
not yet been, kind of, cleaned out, that we can have your 
commitment to be working with the Committee to let us know how 
we can make the process better. I am very worried that we do 
not have alignment here with where the industry is going and 
where our regulatory structure is currently. I am assuming you 
both agree with that and recognize that we need to be working 
together on this?
    Mr. McIntyre. Yes, Madam Chairman, I absolutely do. And if 
confirmed, I would look forward to playing a role in that.
    The Chairman. Great.
    Mr. Glick, because of your experience on this Committee you 
have particular insight, I think, that you can hopefully share 
with us.
    Mr. Glick. Yes, Madam Chairman, I'd be glad to do that. As 
my colleagues behind the dais there know, I already have a lot 
of ideas that I'd like to put forward.
    The Chairman. Yes.
    Mr. Glick. But I would certainly be glad to work with you 
all on that.
    The Chairman. Good, good.
    Mr. Nelson, let me ask you a question, and this relates to 
some of what we have seen in the news of late. The Park 
Service, some of the other agencies within DOI have been the 
subject of numerous investigative reports from Interior's 
Inspector General, subjects of which have even included the 
previous Park Director himself, topics ranging from sexual 
misconduct to really some major ethical violations.
    What do you think needs to be done to improve not only the 
Park Service but within the Department of the Interior as a 
whole to avoid this kind of conduct by employees in the future 
and to really make sure that there is a more positive and 
conducive work environment for the employees and those who 
visit our public lands?
    Mr. Nelson. Yes, thank you.
    I fully support Secretary Zinke's zero tolerance policy 
regarding that type of behavior and those employees need to be 
put on notice that if they get out of line then they will be 
terminated. There is no way that the Department can operate 
looking the other way on any of that type of behavior, and I 
would fully support that.
    I'd have to get in to see. I've read the public reports, 
but I don't know exactly all of the details. So once I get in, 
I'd be more than willing to work to stamp that out. I totally 
agree that that type of behavior is unacceptable, particularly 
as a public servant.
    The Chairman. Well, we would certainly hope you make that a 
priority. Thank you.
    Mr. Balash, I do not need to remind you of the important, 
the critical, commitment that we have to our nation's first 
peoples. Alaska is home to half of the tribes in the country. 
Through the Alaska Native Claims Settlement Act there is a 
unique relationship between our tribes and the Federal 
Government.
    There has been a lot of discussion coming out of leaders in 
the State of Alaska that have been concerned that consultation 
between our tribes and the Federal Government and our agencies 
has been more of a, just a check the box exercise. There has 
been frustration on many levels. I know that this is not just 
out of Alaska but in other parts of the country as well.
    I would like your commitment to conduct meaningful and 
consistent consultation with the tribes and native 
organizations, not only in Alaska but across the country, and 
to really involve them in appropriate decision-making that is 
relevant to them. I would ask you to provide that level of 
commitment to us.
    Mr. Balash. Madam Chair, I'm fully committed to making sure 
that we follow all of the law, but more importantly, that we 
actually pay attention to what we're told in those consultation 
sessions and that we take into account those very real needs 
and concerns of the people who are most affected by the 
decisions made by the Department.
    The Chairman. Thank you. I appreciate that.
    Next, let us go to Senator Cortez Masto.
    Senator Cortez Masto. Thank you, Madam Chair.
    Gentlemen, welcome and thank you for your willingness to 
serve. Welcome to your families who I think have taken over the 
whole room. It is wonderful to see you all here.
    I am from Nevada and just came back from touring rural 
Nevada. If you do not know, about 85 percent of the land in 
Nevada is owned by the Federal Government. I think the Federal 
Government owns more land in Nevada than any other state. 
Because of that we interact on a regular basis with the BIA, 
BLM, Bureau of Reclamation, DoD, Department of Energy, Fish and 
Wildlife Services, Forest Services and the National Park 
Service.
    Mr. Balash, I would like to start with you because the 
number one topic of conversation as I went around our rural 
communities where there is farming and ranching and mining is 
the BLM.
    What I would really like to just get a commitment on, I 
have already heard it but I just want to make sure that I can 
hear it for purposes of Nevadans, is that you are willing to 
work with all of those federal agencies. Number one, when an 
issue comes up that we are dealing with, whether it is 
addressing fire services or wild horses or sage grouse or lands 
in Nevada, that you are willing to come to the table and be not 
only a part of that discussion but bring your federal agencies 
and work with them where we can streamline issues that we are 
dealing with, work together for those resources and help us 
bring those other federal agencies to the table. Are you 
willing to do so?
    Mr. Balash. Senator Cortez Masto, absolutely.
    Senator Cortez Masto. Great.
    The second question would be are you also willing then to 
also come to the table when we have issues at a state, local 
level, whether it is our state officials, local officials or 
our tribes that are in Nevada, Native American tribes or key 
environmental stakeholders to really find solutions? That is 
typically how we work in Nevada, bringing everybody together to 
find solutions to the issues and hoping that you would be at 
the table and would be willing to do so. Is that a yes?
    Mr. Balash. Yes, ma'am.
    Senator Cortez Masto. And then I am curious about your 
position on state's rights because of the positions you have 
held before in Alaska. How do you see the role between the 
states and the Federal Government and that interplay, 
particularly where you are now?
    Mr. Balash. Thank you, Senator.
    Having previously served in a capacity where I managed a 
large portfolio of land, water and a variety of resources, the 
need to work with other agencies and specifically, federal 
agencies, was something that we had to undertake on a regular 
basis in nearly every case.
    And I believe that you get much further when people come to 
an understanding, jointly, collaboratively, by first 
understanding the problems that each other has and then 
identify solutions together.
    That's an approach that I have seen work in my prior 
positions, and I'm committed to doing that at the Department of 
the Interior as well.
    So as far as the words, state's rights, that's something 
for the attorneys to argue about. And what I can tell you is 
that I learned a lesson from a colleague long ago that just 
because you can do something, doesn't mean you should. There 
may be things that BLM or any of the other agencies in the 
portfolio I hope to be confirmed to administer that there are 
decisions that they can make unilaterally, but that doesn't 
mean that they should and taking into account the views.
    I'm going to be very deferential to the views of state and 
local governments, also their elected Members of Congress. And 
while I use the word, deferential, that's not an absolute. 
There will be times when there's a pressing national interest 
or concern that has to be taken into account, but it's going to 
need to be a compelling one for me to be willing to even 
consider going a different way.
    Senator Cortez Masto. Thank you. Thank you for your 
response.
    Mr. Glick and Mr. McIntyre, let me, because I am running 
out of time here, say just very quickly. I agree with 
everything that I have heard here from my colleagues and the 
need to recognize the evolving and changing markets that we 
have out there. Electricity, what is happening with the new 
technology. In Nevada alone, we are moving down the path of 
renewable energy and renewable energy resources, and we are 
very excited about it. So I have a couple questions, very 
briefly--yes or no answers.
    In the State of Nevada, we have a successful renewable 
portfolio standard and have made great strides in creating a 
clean energy economy. Do you agree that states have the 
authority to establish the resource mix that best serves their 
customers? Yes or no?
    Mr. Glick. Yes.
    Mr. McIntyre. Senator, I also say, yes.
    Senator Cortez Masto. Do you agree that the evidence shows 
that solar and wind power can be reliably integrated into the 
power grid?
    Mr. Glick. Yes, Senator. There are over nine states that 
get more than 15 percent of their power from renewable energy 
today, and none have had any reliability problems.
    Mr. McIntyre. Yes, Senator, in part due to actions taken in 
recent years by the FERC, renewable energy resources are making 
their way, reliably, to our grid.
    Senator Cortez Masto. Great. Thank you very much.
    I know I am out of time. Thank you very much, Madam 
Chairman.
    The Chairman. Thank you, Senator.
    Senator Hirono.
    Senator Hirono. Thank you, Madam Chair. Welcome to all of 
you and a special Aloha to my fellow GULC graduate, Mr. 
McIntyre.
    Mr. McIntyre. Thank you so much, Senator.
    Senator Hirono. I will start with Mr. Balash. Hawaii has 
the most ambitious renewable electricity goal in the country of 
100 percent reliance on renewable sources by 2045 for 
electricity, and the state has already attained 26 percent of 
renewable electricity. 
Hawaii is exploring its marine energy resources, including at 
the Hawaii National Marine Renewable Energy Center, operated by 
the University of Hawaii in partnership with the Department of 
Energy.
    Now, the Department of the Interior's Bureau of Ocean 
Energy Management, BOEM, would be responsible for leasing 
offshore areas for development of offshore wind, wave energy or 
ocean thermal energy generation systems. In 2012, BOEM 
established the BOEM/Hawaii Intergovernmental Renewable Energy 
Task Force to promote planning and coordination and effective 
review of requests for commercial and research leases. I want 
your commitment to continue the Renewable Energy Task Force 
with Hawaii.
    Mr. Balash. Senator Hirono, thank you for the question. I'm 
not familiar with that specific task force, but I look forward 
to reviewing it and working with your office to make sure that 
its work continues.
    Senator Hirono. Good.
    I want to also ask that you get back to me if you can make 
that commitment which is what I am seeking, but not only to 
commit, but to think about expanding BOEM's engagement with the 
public marine renewable energy resource development and 
continuing BOEM's support for ocean science to expand our 
knowledge of the marine and coastal environments. So not only 
to commit to what you are already doing in Hawaii but to expand 
BOEM's efforts. So, we will chat about that, should you be 
confirmed.
    Another question for you, Mr. Balash. There are concerns 
that have been expressed about this Administration's balancing 
of commercial interests over conservation efforts, and these 
concerns have been voiced by a number of groups and 
individuals. And indeed, actions such as Secretary Zinke's, 
basically, unprecedented review of national monuments have 
raised concerns all across the country, including in Hawaii 
which has a very large monument called Pu'ukohola Heiau.
    During your time as Commissioner, and Senator King did 
address this, you were involved in laying Alaska's claim to 
20,000 acres of land. I think I heard you say that you would 
take the appropriate actions to recuse yourself. I am assuming 
that the Department has recusal and conflict of interest 
guidelines that you would follow.
    Mr. Balash. Senator Hirono, I'm absolutely committed to 
following the guidance proffered by the Department's attorneys.
    Senator Hirono. As I said, because there have been concerns 
raised about how the Department or how your agency would 
balance environmental, for example, versus commercial 
interests, I would want your commitment that in future actions 
you would bring to the table the stakeholders, such as the 
environmental people and the commercial people, before you take 
action.
    Mr. Balash. Thank you, Senator Hirono.
    In my prior post at the State of Alaska we regularly 
brought in the various environmental organizations to make sure 
that we had an open dialogue, were aware of the issues of 
concern that they were monitoring, not only on state lands but 
also federal lands and other private adjacent lands. So that is 
a practice that is going to require a bigger scale in this 
position, if confirmed, but I would seek to have a similar open 
channel with those communities.
    Senator Hirono. Yes. I think what we are looking for is an 
open commitment to that kind of a process because apparently 
that has not always been thus at your Department.
    For Mr. McIntyre, you may know that Hawaii does not fall 
within FERC's jurisdiction over interstate energy transactions 
because there is no other contiguous state. But in 2012 the 
FERC and Hawaii Pacific Utilities Commission signed an 
agreement to share information on energy issues and regulatory 
practices. At the time of the agreement, FERC recognized that 
Hawaii could provide special insight into integrating high 
levels of renewable energy, demand response, microgrids and 
energy storage. From Hawaii's perspective, FERC's knowledge and 
resources are especially helpful in adapting regulations to fit 
the state's shift to 100 percent renewable electricity by 2045. 
If you become Chairman of FERC, will you commit to continuing 
FERC's information sharing with Hawaii?
    Mr. McIntyre. Thank you, Senator.
    FERC shares information and collaborates with various 
levels of government and indeed, with other countries as well. 
I think it's an important part of FERC's role. And if 
confirmed, I would hope to continue in that tradition.
    Senator Hirono. As I mentioned, I think Hawaii has some 
unique experiences to offer in the areas that I talked about. 
So it is not just an arrangement that you have with just 
anybody, but Hawaii is uniquely positioned, perhaps, to provide 
insights and allowing us to go forward with renewable energy 
development and grid development.
    Mr. McIntyre. Yes, I understand. Thank you, Senator.
    Senator Hirono. Thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Hirono.
    Senator Duckworth.
    Senator Duckworth. Thank you so much, Madam Chair.
    To date, gentlemen, 30 states have passed renewable 
portfolio standards, and I would like to return the 
conversation back to state's rights.
    Never thought you would hear so much about state's rights 
from Democrats, huh? But here we are. Multiple states, 
including Illinois, have adopted policies to support existing 
nuclear power plants. We have more nuclear power plants than 
any other state in the nation. States are enacting these 
policies for a wide variety of reasons, ranging from improving 
energy diversity to helping the environment and boosting 
economic development.
    Mr. Glick and Mr. McIntyre, you have answered this before 
with my colleague from Nevada, but I just want to be sure that 
I can get your reassurance that you would agree that state 
level energy policies, as passed by the duly elected 
legislators and governors of each state, that this is the 
appropriate place for these policies to be decided, in the 
states.
    Mr. Glick. Senator, Congress has left for the states the 
authority over utility resource decision-making, so that's not 
in FERC's role.
    I think the Supreme Court in the Hughes case essentially 
outlined how states could make resource decisions and not 
interfere with FERC's jurisdiction, and I think, without 
prejudging any particular matter, I think the Hughes case is 
something I will certainly follow.
    Senator Duckworth. Thank you.
    Mr. McIntyre?
    Mr. McIntyre. Yes, thank you, Senator.
    We do have a federal system of law. The FERC has its role 
and the states have theirs and there is no question the states 
have the absolute right to implement these renewable portfolio 
standards.
    Senator Duckworth. Thank you.
    Certainly those as applied in Illinois fall under that 
Supreme Court decision.
    Infrastructure has been at the front of the mind for us 
here in Congress. I believe the right kind of the 
infrastructure does not just have the capacity to create 
thousands of jobs in the short-term but also should have the 
capacity to deliver economic opportunity in the very long-term 
as well.
    Mr. Glick and Mr. McIntyre, if confirmed, how would each of 
you work through FERC to promote greater investment that will 
both modernize and expand our nation's energy transmission 
infrastructure?
    Mr. McIntyre. Thank you, Senator.
    FERC's role in energy infrastructure is what I think of as 
its original jurisdiction, going back to hydroelectric power in 
1920 and then expanded to natural gas facilities in the 1930s.
    States here have a role as well. Generally speaking, 
electric transmission infrastructure is cited at the state 
level. So that, of course, is something that the FERC must 
continue to respect.
    I can commit to you that, if confirmed, these are areas 
that are important issues and I would hope to bring the 
attention that these issues deserve to them.
    Senator Duckworth. Thank you.
    Mr. Glick?
    Mr. Glick. So Senator, there are a number of various 
infrastructure investments that we're talking about in the 
energy industry. As Mr. McIntyre mentioned, some are more 
within FERC's jurisdiction than others, but I want to talk 
about electric transmission for a second because we clearly 
need additional electric transmission, both to access remotely 
located renewable resources but also to reduce congestion and 
allow consumers to have greater access to less expensive power. 
I think the Commission's siting authority is very limited 
there. That's mostly an issue left up to the states, but the 
Commission does have other authorities.
    For instance, in Order 1000 it required utilities to engage 
in regional transmission planning. I think that's worked pretty 
well. It also has various incentive rate authorities that 
Congress gave it, I think, in 2005 that would encourage the 
investment in additional transmission resources.
    So I think it's something that the Commission does have a 
broad set of policies that can produce increased investment, 
it's just not on the siting front.
    Senator Duckworth. That is a real concern of mine, the 
balancing of what consumers can afford against what, really, 
are tremendous costs that are required to upgrade existing 
facilities. I do not see how we, as a nation, compete on a 
global scale when we have aging infrastructure at all levels.
    That is a real concern that I would ask both of you to 
really think about how we balance that out and yet still be 
able to make the commitments to investment and promoting 
investments so that we can truly compete on a global scale when 
it comes to our energy infrastructure. In fact, you know, 
energy and energy infrastructure also have a tremendous impact 
on our environment. Given that, what role should FERC play 
toward securing a cleaner environment?
    Mr. Glick. Well, Senator, I'm not aware FERC has much of a 
straightforward, direct role in promoting environmental 
enhancement. That's certainly left up to the EPA and other 
agencies, as well as the Congress. But I would say that FERC 
has, in terms of, and I mentioned this in my opening statement, 
in terms of reducing barriers to cleaner technologies such as 
distributed generation or energy storage could help promote, 
enhance environmental benefits, but also economic benefits as 
well.
    Senator Duckworth. Thank you.
    Mr. McIntyre?
    Mr. McIntyre. Senator, I agree with the suggestion that the 
FERC is not an environmental regulator per se. I think it's 
important for FERC to keep its eyes open to opportunities to 
advance public policies in areas where there are, where the 
FERC's jurisdiction does extend, including in through our 
relevant environmental aspects to look at. This is something 
that has been growing recently in the FERC's consideration of 
natural gas pipeline applications.
    Senator Duckworth. Well, I agree with both of you and I 
think it is important for FERC to remain, to keep, a non-
discriminatory attitude toward any specific energy, as long as 
we can continue to move the ball forward in that.
    Thank you so much.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Duckworth.
    Senator Franken.
    Senator Franken. Thank you, Madam Chair.
    We are seeing devastating wildfires across the West right 
now. I have heard from colleagues about the effects in 
California and Washington and Oregon and Montana, just to name 
a few.
    Now, about a month ago, this Committee held a hearing on 
wildfire technology and we heard a lot about the importance of 
hazardous fuels treatment. We know that removing hazardous 
fuels lowers wildfire risk, but we also know that right now it 
is not economical to do so and we have so much fire borrowing 
that the economy here is an issue. So we have to find a market 
for these fuels, if we can.
    Now in the past I have discussed the possibility of 
hazardous fuel management supplying biomass for district energy 
projects or combined heat and power plants, especially in the 
wildland urban interface because, stay with me here, you have 
the wildland and you have the urban, and the wildland would 
have the forests, say, and the hazardous fuels and the urban 
part would need electricity and heat and cooling in the summer 
and also their houses they are in and that you do not want to 
burn up.
    To me, doing this would expand distributed energy systems 
which would boost grid reliability and resilience but it would 
also lower the risk of wildfires significantly. It seems like, 
kind of, a win/win to me.
    Now, Mr. Balash, if you are confirmed for this position you 
would be responsible for overseeing the Bureau of Land 
Management and dealing with thousands of wildland fires that 
occur on BLM land every year.
    So my question is, and especially in the wildland urban 
interface, do you think that we can find a way to incentivize 
the use of hazardous fuels to generate electricity? In other 
words, can we recognize the co-benefit of wildfire risk 
reduction in these cases you see there?
    Mr. Balash. Senator Franken, I look forward to reviewing 
the particulars that relate to locations across the United 
States, but I know in my home state, in the community of Tok, a 
remarkable demonstration has occurred there where fire breaks 
around the surrounding community to protect it against 
wildfires from the Tanana Valley State Forest have been used 
successfully to generate heat in the core of the community for 
the school district and also for some of the residential and 
commercial buildings in the nearby area. So not only district 
heating but also power gen has been done effectively and 
economically through the use of biomass collected from these 
fire breaks.
    Senator Franken. So you like this idea?
    Mr. Balash. I love it.
    [Laughter.]
    Senator Franken. Okay.
    The Chairman. That is good to know.
    Senator Franken. Madam Chair, thank you. Because I know the 
Chairwoman has also been very interested in this.
    I will move on to my next point. Distributed energy and 
energy storage technologies help improve the reliability and 
resiliency of the electric grid. This is especially true in 
disaster situations.
    During Superstorm Sandy, large sections of the grid went 
down; however, some communities were able to keep the lights on 
because of distributed generation, like combined heat and 
power. With Hurricane Harvey last month and Hurricane Irma now, 
I think this is more important than ever. FERC can play an 
important role in promoting these technologies. Late last year 
FERC started a rulemaking to ``remove barriers to the 
participation of electric storage resources and distributed 
energy in electricity markets.''
    Mr. McIntyre, what role do you see energy storage playing 
in the future in the electricity markets and transmission 
systems and how can FERC help ensure that energy storage is 
receiving proper compensation for the benefits that it provides 
to the grid?
    Mr. McIntyre. Thank you for the question, Senator.
    Energy storage's role in satisfying our nation's energy 
needs is growing year after year irrespective of any action by 
the FERC. Your question recognizes that there is a pending 
matter before the FERC looking at storage's role in energy 
markets overseen by the FERC, so it wouldn't be appropriate for 
me to indicate a specific position on that.
    But as a general philosophical matter, I'm very much an 
all-of-the-above person when it comes to the resources that we 
need to satisfy our energy needs and energy storage should 
validly be recognized as a growing part of that.
    Senator Franken. I am very glad to hear you, well, I know 
you cannot take a position. If you are confirmed, will you 
finalize the rulemaking for storage and distributed resources?
    Mr. McIntyre. Senator, I have not had an opportunity to 
review the record of it. I certainly can commit that I would 
look at that record and determine, for starters, whether it 
needs to, whether it's a good record on which to proceed to a 
decision, and if not, take stock from there as to any 
additional record steps that would be needed. But I absolutely 
commit to you that, if confirmed, I would give the matter the 
attention it deserves.
    Senator Franken. Okay, thank you, thank you very much.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Franken.
    I have just about one question for each of you.
    Let me begin with a question directed to our FERC nominees. 
This relates to the Alaska gas line project. I am not going to 
ask you to prejudge any pending application out there, but I am 
sure you are aware back in 2015 the Department of Energy 
granted a conditional authorization for the Alaska gas line to 
export LNG to countries that do not have a free trade agreement 
with the United States. This was a pretty big milestone in our 
efforts to advance a gas line, and then in April of this year, 
the Alaska Gas Line Development Corporation filed their 
application with the FERC. It may be the largest application 
ever. I am told it is about 58,000 pages. I bet you just cannot 
wait to jump into this.
    [Laughter.]
    But I know that all applications, particularly applications 
of this size, take a significant amount of work by staff and by 
the Commissioners and I had an opportunity, prior to the 
submission of the application, to speak with those that were at 
FERC at the time about just the ability of the Commissioners 
and the staff to wade through an application of this size in a 
way that gives it the thorough consideration that I think it 
deserves but to do so in a timely and a predictable way. I 
would just ask the two of you, assuming that you are going to 
be confirmed, which I believe you will and I look forward to 
that, but that you would give it the same considered effort, 
even though it may be just physically daunting to even look at.
    Mr. McIntyre. Well, thank you, Senator.
    Let me say that I believe that FERC's role in approving 
energy infrastructure projects, including specifically natural 
gas facilities along the lines that you referenced, is one of 
its most important roles. I'm not surprised by the 58,000 page 
figure you cite. These are inherently complex matters. They're 
not only highly technical facilities involved, but they raise 
complex environmental and community issues, all of which need 
to be considered carefully. If confirmed, you have my 
commitment. I will give the matter the full attention it 
deserves.
    The Chairman. I appreciate that.
    Mr. Glick. Yes, Madam Chair.
    I think it's important, not only for the applicant, but for 
all stakeholders involved in the process that FERC act in a 
timely and predictable manner. And 58,000 pages certainly 
sounds like a daunting matter, but I think the Commission has a 
lot of staff, a lot of responsibility, a lot of history with 
regard to these efforts and I think certainly there are ways to 
expedite this matter.
    The Chairman. I agree and thank you for that.
    Just as a follow-on, more as a principle, as a policy 
matter. Again, without asking you to prejudge anything here, do 
you support Alaska's efforts to advance its stranded gas?
    Mr. McIntyre. Madam Chairman, I'm concerned that commenting 
on it might cross the line into suggesting a position on the 
Alaska gas line project, so I prefer to refrain from doing 
that. But certainly as to any state, I support the efforts of 
each and every state to advance its energy cause.
    The Chairman. Yes, I do not want to put you in a situation 
where you do not feel comfortable in answering that.
    Mr. Glick, I will assume that you are going to tell me a 
similar response here.
    Mr. Glick. Yes, I would, but I'd just add a note. The 
Department of Energy has already acted. The Department of 
Energy determines whether natural gas should be exported. 
FERC's authority is very limited----
    The Chairman. Right.
    Mr. Glick. In terms of just assessing the facilities 
whether they qualify for a certificate of public convenience 
and necessity.
    The Chairman. Fair enough. Fair enough.
    Mr. Balash, we recognize that in Alaska everybody thinks 
about our oil and our gas assets. We know that they are 
considerable, but we always remind folks that we have more than 
just oil and gas. Our coal is considerable, our mineral wealth 
is considerable, but we also have extraordinary opportunities 
when it comes to renewables. You, in your position as 
Commissioner of Natural Resources for the State of Alaska, had 
an opportunity to work to advance some of our other 
considerable resources.
    I want to give you just a quick moment here to speak to 
your involvement with advancing renewable resources within the 
state at the same time that we were working to advance our oil 
and gas and coal and mineral resources.
    Mr. Balash. Thank you, Madam Chair.
    Even before my appointment at the Department of Natural 
Resources, when I was working in the Office of the Governor, I 
was part of the team that helped deliver a goal for the State 
of Alaska to achieve 50 percent of its electric generation by 
renewable sources.
    At the same time, we were working with our legislature to 
establish a renewable energy fund to help bring capital to the 
table for communities and regions that we're seeking to provide 
renewable sources of power generation as an alternative to the 
diesel that is used in most parts of our state.
    At the Department of Natural Resources, I had the 
opportunity to work on a variety of renewable energy projects, 
including in support of the exploration at Mount Spur for 
geothermal resources. We conducted a lease sale for Mount 
Augustine to also lease out the geothermal rights for that 
particular volcano. And in what I consider to be my own 
backyard, for Golden Valley Electric Association there was the 
Eva Creek Wind project where it was state property that had the 
best potential in proximity to interties to put up and erect 
wind turbines that we first had to wrangle through what the 
proper valuation methodology was to ensure that the public 
received a fair share, so to speak, of the value of its real 
estate that happened to be in a nice, consistently windy place 
near Healy. So I think if you take a clear-eyed look at our 
track record as a state, we have a very balanced approach and 
one that I've been proud to be a part of.
    The Chairman. Good. I appreciate that, and I appreciate 
your leadership, certainly, at the time.
    I do want to include as part of the Committee record today 
some letters of support that we have received on your behalf, 
Mr. Balash. So we will include that as part of the Committee 
record today.
    [The information referred to follows:]
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. I think we should note for the record that as 
we have our two FERC nominees and the one who has been named to 
head up the FERC and we are talking about reliability that we 
seem to be going in and out of the lights here today. I do not 
understand why. We have checked and nobody is leaning against 
the light switch. So, I do not know whether you should take 
this as an omen, good or bad.
    [Laughter.]
    That is up for you to determine.
    But reliability, it is all key.
    I am going to ask the last question to you, Mr. Nelson. 
When we spoke in my office, and I thank you for the 
conversation, I mentioned ANILCA, the Alaska National Interest 
Land Conservation Act. In Alaska that is, kind of, our manual 
of operations almost.
    There are contained within ANILCA several provisions that 
we collectively refer to as the ``no more'' clauses and there 
are sections specific to withdrawal of lands, public lands, in 
Alaska. New withdrawals cannot be in excess of 5,000 acres in 
aggregate. If a 
withdrawal exceeds that, it cannot be effective unless and 
until Congress acts affirmatively. And it goes further than 
that. It disallows certain studies of federal lands in the 
state for establishing conservation system units, national 
recreation areas, national conservation areas or other areas 
that are prohibited or, excuse me, they are prohibited unless 
authorized by Congress.
    Again, I am not asking you to whip out your ANILCA here and 
tell me word for word how you interpret the new ``no more'' 
clause, but I would ask you, generally, if you can share with 
me how you view the meaning of these various clauses within 
ANILCA and what it means for Alaska when it comes to for 
purposes of withdrawal.
    Mr. Nelson. Thank you, Senator.
    I am familiar with ANILCA and, obviously, this is a 
complicated question. I fully understand how unique Alaska is 
and the protections that were granted to Alaska in the 
negotiation that was done in adopting that statute. As to the 
``no more'' clause, I think the language is pretty clear that 
if it's a withdrawal that it's not permitted and then you get 
into a legal discussion of what a withdrawal is.
    And you know, not being at the Department at this point 
it's hard for me to go much further than that, except to say, 
we certainly, I'm certainly aware of the commitments that were 
made to Alaska and have every intention of keeping that and 
reviewing the statute and giving it full consideration.
    The Chairman. Good. I appreciate that.
    We look at it pretty literally. No more means no more, and 
we wish that we could get a more clear interpretation more 
often out of our agencies.
    As you review, again, I mentioned to you that I think it is 
important that those in our agencies, who are implementing 
provisions under ANILCA, know and understand and really 
appreciate.
    So there are ANILCA backgrounder trainings that certainly 
those in Alaska have undergone, but I think even more 
significant than those in Alaska, those here in Washington, DC, 
that are making decisions that have impact on us back home, 
have that understanding, that knowledge, that awareness and 
would certainly encourage that within the Solicitor's Office.
    Mr. Nelson. Senator, you've got my commitment that I will 
make sure that all 300 attorneys have read ANILCA within a 
month of me being confirmed, if that happens.
    The Chairman. I am pretty sure most of them have, but a 
little refresher is not a bad thing. Again, we can certainly 
provide some level of expertise, but thank you for that.
    Gentlemen, I thank you for the time that you have given the 
Committee this morning and appreciate all that you are offering 
of yourself, your professionalism, your expertise, your time.
    To the families that are sitting behind you, who are the 
support for these leaders, thank you, because it means that 
there is going to be less time at home doing some of the family 
things that one would like. This is an important service to our 
country and we, certainly, appreciate that.
    As I mentioned at the outset, it is my hope that we will be 
able to advance your names out of Committee here shortly.
    I do think it is important that whether it is the FERC and 
restoring FERC to a full quorum or providing the Secretary, in 
this case the Secretary of the Interior, his team to be working 
on these issues that we all recognize are very important. We 
cannot get you there fast enough. So know that it is my 
intention to urge my colleagues to get their questions for the 
record in and ask you to be rapid with your responses so we can 
get your names moved through so that you can get to work.
    With that, I thank you and thank those who have joined us 
today.
    The Committee stands adjourned.
    [Whereupon, at 12:23 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                               

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
